                    December 10, 1999

                    JOHN WARD
                    VICE PRESIDENT, FINANCE, CONTROLLER

                    SUBJECT:	 Tort Claim Receivables
                              Report Number FR-FA-00-006

                    This report presents an interim finding identified during our
                    audit of the United States Postal Service financial
                    statements for fiscal year (FY) 1999, San Mateo Accounting
                    Service Center (Project No. 99PA010FR002).

Results in Brief	   Tort claim receivables were neither aggressively managed
                    nor written off after the statute of limitations for collection
                    had expired. Fourteen of twenty accounts receivable
                    reviewed were uncollectable and needed to be written off.
                    Three receivables transferred to a collection agency were
                    not followed upon and two needed to be referred to a
                    collection agency. One account needed a review by the
                    legal department for improper denial of claim by a
                    municipality.

                    This condition occurred because:

                    ♦	 Management did not review Aging Accounts Receivable
                       reports.

                    ♦	 Tort Claims staff did not follow up with the responsible
                       person or their insurance company for payment.

                    ♦	 Status reports were not provided by the collection
                       agency.

Background 	        Postal Service vehicles are self-insured for property
                    damage and bodily injury. When non-postal individuals
                    damage Postal Service vehicles, the paralegal staff of the
                    Center’s Tort Claims section seeks recovery of the property
                    damage costs. When the damages to the vehicle have
                    been determined and repaired, the person responsible for
Tort Claim Receivables                                                         FR-FA-00-006



                         the accident is notified to reimburse the Postal Service.
                         The Postal Service can collect for property damage claims
                         within a three-year period under the statute of limitations. If
                         no legal action is brought within this period, damages can
                         no longer be collected.

                         Policy and procedures for claims against private persons for
                         damage to postal vehicles and property are covered in
                         management instruction, FM-810-93-3, dated
                         December 10, 1993, and chapter 6, handbook F-16,
                         Accounts Receivable, dated February 1990.

Objective, Scope, and Our objective was to review the procedures over the
Methodology           allowance for doubtful accounts and determine the
                      reasonableness of the account balance. We conducted this
                      portion of the audit from February 1999 through July 1999
                      in accordance with generally accepted government auditing
                      standards an included tests of internal controls as were
                      considered necessary under the circumstances.

                         We discussed our findings and recommendations with
                         appropriate management officials and included their
                         comments, where appropriate.

Allowance for            Tort claim receivables were neither aggressively managed
Doubtful Account         nor written off after the statute of limitations for collection
                         had expired. Fourteen of twenty accounts receivable
                         reviewed were uncollectable and needed to be written off
                         after three years. Three receivables transferred to a
                         collection agency were not followed upon and two needed
                         to be referred to a collection agency. One account needed
                         a review by the legal department for improper denial of
                         claim by a municipality.

                         This condition occurred because management did not
                         review the Accounts Receivable Aging report. The aging
                         report should be reviewed on a regular basis to monitor
                         collections, due dates and write-offs of accounts. Tort claim
                         staff should follow up with responsible persons or their
                         insurance company for reimbursements. The collection
                         agency should submit periodic collection reports including
                         statistics of their collection efforts.

                         Accounts receivable should be reported at net realizable
                         value. Uncollectible receivables should be written off each


                                             2
                                  Restricted Information
Tort Claim Receivables	                                                         FR-FA-00-006



                          accounting period if the balance sheet is to reflect fairly the
                          financial position of the Postal Service and results of its
                          operations.

Recommendations           We offer the following recommendations:

                          The vice president, finance, controller should:

                          1. Use past due invoice reports to monitor the status of
                             receivables.

                          2. If written or personal contacts do not produce any
                             results, investigate responsible persons to determine if
                             payment should be pursued.

                          3. Require the collection agency to produce reports that
                             detail money collected, and cases closed or
                             recommended to be closed.

                          4. Use past due invoice reports to identify receivables that
                             can be collected.

                          5. Write off receivables that are uncollectable.

                          Please furnish a reply within 20 days describing the
                          corrective action planned or taken, including the
                          timeframes, on our recommendations. This finding will be
                          included in a consolidated report for the San Mateo
                          Accounting Service Center at the conclusion of the fiscal
                          year 1999 financial statement audit. The report will include
                          your comments and any planned corrective actions. If you
                          have any questions, please contact                 at
                                or        at 	            .



                          Richard F. Chambers
                          Assistant Inspector General
                           for Performance

                          cc:	 Jayne E. Schwarz
                               Kristine A. Wright
                               John R. Gunnels




                                              3
                                   Restricted Information
